<html>
<title> - RESPONDING TO THE CHALLENGES FACING RECYCLING IN THE UNITED STATES</title>
<body><pre>[Senate Hearing 116-255]
[From the U.S. Government Publishing Office]




                                                     
                                                         S. Hrg. 116-255

   RESPONDING TO THE CHALLENGES FACING RECYCLING IN THE UNITED STATES

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS

                          UNITED STATES SENATE

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION

                               ----------                              

                             JUNE 17, 2020

                               ----------                              

  Printed for the use of the Committee on Environment and Public Works


        Available via the World Wide Web: http://www.govinfo.gov
        
        
        
        
        




             RESPONDING TO THE CHALLENGES FACING RECYCLING

                          IN THE UNITED STATES
                          
                          
                          


                                                        S. Hrg. 116-255
 
   RESPONDING TO THE CHALLENGES FACING RECYCLING IN THE UNITED STATES

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS

                          UNITED STATES SENATE

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             JUNE 17, 2020

                               __________

  Printed for the use of the Committee on Environment and Public Works
  
  
  
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]  
  


        Available via the World Wide Web: http://www.govinfo.gov
        
        
                          ______                      


               U.S. GOVERNMENT PUBLISHING OFFICE 
41-242 PDF                WASHINGTON : 2020 
 
        
        
        
        
               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION

                    JOHN BARRASSO, Wyoming, Chairman
JAMES M. INHOFE, Oklahoma            THOMAS R. CARPER, Delaware, 
SHELLEY MOORE CAPITO, West Virginia      Ranking Member
KEVIN CRAMER, North Dakota           BENJAMIN L. CARDIN, Maryland
MIKE BRAUN, Indiana                  BERNARD SANDERS, Vermont
MIKE ROUNDS, South Dakota            SHELDON WHITEHOUSE, Rhode Island
DAN SULLIVAN, Alaska                 JEFF MERKLEY, Oregon
JOHN BOOZMAN, Arkansas               KIRSTEN GILLIBRAND, New York
ROGER WICKER, Mississippi            CORY A. BOOKER, New Jersey
RICHARD SHELBY, Alabama              EDWARD J. MARKEY, Massachusetts
JONI ERNST, Iowa                     TAMMY DUCKWORTH, Illinois
                                     CHRIS VAN HOLLEN, Maryland

              Richard M. Russell, Majority Staff Director
              Mary Frances Repko, Minority Staff Director
              
                            C O N T E N T S

                              ----------                              
                                                                   Page

                             JUNE 17, 2020
                           OPENING STATEMENTS

Barrasso, Hon. John, U.S. Senator from the State of Wyoming......     2
Carper, Hon. Thomas R., U.S. Senator from the State of Delaware..     4

                               WITNESSES

Udall, Hon. Tom, U.S. Senator from the State of New Mexico.......     7
    Prepared statement...........................................    18
Croke, Bridget, Managing Director, Closed Loop Partners..........    23
    Prepared statement...........................................    26
    Responses to additional questions from:
        Senator Sullivan.........................................   173
        Senator Carper...........................................   175
        Senator Merkley..........................................   178
        Senator Markey...........................................   179
Stasz, Meghan, Vice President of Packaging and Sustainability, 
  Consumer Brands Association....................................   181
    Prepared statement...........................................   183
    Responses to additional questions from:
        Senator Sullivan.........................................   189
        Senator Carper...........................................   192
        Senator Merkley..........................................   194
        Senator Markey...........................................   195
Butler, Nina Bellucci, Chief Executive Officer, MORE Recycling...   197
    Prepared statement...........................................   200
    Responses to additional questions from:
        Senator Sullivan.........................................   217
        Senator Carper...........................................   224
        Senator Sanders..........................................   230
        Senator Merkley..........................................   233
        Senator Markey...........................................   234


   RESPONDING TO THE CHALLENGES FACING RECYCLING IN THE UNITED STATES

                              ----------                              


                        WEDNESDAY, JUNE 17, 2020

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:07 a.m. in 
room 106, Dirksen Senate Office Building, Hon. John Barrasso 
(Chairman of the Committee) presiding.
    Present: Senators Barrasso, Carper, Inhofe, Braun, Rounds, 
Boozman, Ernst, Cardin, Whitehouse, Merkley, and Gillibrand.
    Senator Barrasso. Before we start the hearing today, I 
wanted to just say it is Beth Lange's last hearing.
    She has been with the Committee since 2017. For the last 2 
years, she made sure our hearings and our markups ran smoothly 
and on time. We appreciate all the work for the Committee, and 
we wish her very well in her new job with the Department of 
Agriculture and their Legislative Affairs Team.
    During that time, she was able to have a baby named Jack, a 
lovely young lad. Some of us were hoping that it would be John 
instead of Jack, but we understand.
    Off to the Department of Agriculture with you.
    [Laughter.]
    Senator Barrasso. Anyway, Leah Schaefer is taking over and 
will do a great job with Beth.
    Thank you so much for your service to the Committee, and we 
are going to miss you. Thank you.
    Senator Carper. Could I just add our thanks and our 
congratulations as well?
    You have one child, just one child?
    Ms. Lange. Just one.
    Senator Carper. Have you had enough of Jack? Do you think 
there might be another one somewhere down the road?
    Senator Barrasso. A girl named Jill, maybe?
    [Laughter.]
    Senator Carper. That would be good.
    USDA?
    Ms. Lange. Yes.
    Senator Carper. All right. In the Bible, Matthew 25, it 
says, ``When I was hungry, did you feed me?'' and going to the 
USDA, thank you for feeding us, and thank you for your great 
work here. It has been a joy. Thank you.

           OPENING STATEMENT OF HON. JOHN BARRASSO, 
             U.S. SENATOR FROM THE STATE OF WYOMING

    Senator Barrasso. With that, we call this hearing to order 
today.
    Today we are going to consider the recent challenges facing 
recycling programs in the United States and the potential 
solutions to these challenges.
    I will tell you, in the big story today in the Casper 
newspaper is, today--I see Senator Udall--today, we are opening 
the recycling facilities that we have all around Casper that 
have been closed as a result of the coronavirus crisis that is 
affecting us that have been closed as a result for a number of 
months. So, we are going to look specifically today at consumer 
goods, including paper, plastics, metals, and glass.
    I would point out, in reading this article today in the 
Casper Star Tribune, they said that we are not able to, again, 
recycle glass. We will be recycling paper, plastics, and 
others, but not glass.
    It is interesting as we deal with this topic of recycling 
what you can and can't, including no longer can, and what we 
should in the future. I believe we have a shared responsibility 
to keep recyclable materials and other waste out of the 
environment.
    In the United States, State and local laws, not Federal 
laws, govern recycling. That means that towns, cities, and 
counties manage recycling programs. Local recycling programs 
can consist of curbside recycling, which takes place alongside 
weekly trash collections.
    These programs can also include drop off recycling, which 
is what we have in Casper, Wyoming, which involves Americans 
taking their recyclable goods to one or more collection sites.
    I will tell you, other members, that when I take them 
there, and as my wife has me dutifully sectioning things out, 
and we take the clear plastics and the plastics with color in 
them, and then the magazines, and then the newspapers, and the 
inserts and put them all in the different bins, that one day, I 
was there, and what looked like a big trash truck pulled up and 
lined up with each of the dumpsters, and dumped them all into 
the same locations.
    So I guess the only reason I am actually moving them is 
because my wife says it is important that I do separate them 
out before I take them, but that is the way we collect them but 
then when they take them beyond.
    There are lots of interesting points to be dealt with as we 
learn more and more about how and what we can recycle.
    Local governments typically fund recycling programs through 
the sale of recyclable materials and user fees. While we are 
opening our recycling centers again in Wyoming, what we know is 
that it now has a cost to do it. It doesn't pay for itself, 
especially with the distances that we are from other 
communities.
    For decades, communities in the United States sold much, if 
not all of the recyclable materials for export to China. 
Chinese manufacturers were hungry for raw materials. Large 
cargo ships, which would otherwise return empty to China, often 
made it less expensive to export recyclable materials than 
transport the materials locally.
    But in 2018, China all but ended imports of mixed paper and 
mixed plastic. As a result, the value of the materials 
collapsed. In response, local governments have had to decide 
whether to raise users' fees or end, suspend, or scale back 
their recycling programs.
    And what we are seeing in Wyoming today is that, there had 
been a debate at city council, should we end this program. It 
is an important program. What other public services will not be 
granted because of the money that is going to be used at the 
cost to recycle, a program that used to pay for itself?
    When local governments end or suspend recycling, 
recyclables often end up in landfills, so this is something 
that no one wants to see.
    Another challenge facing recycling programs is the issue of 
contamination. Contamination occurs when consumers mix 
recyclable materials with material that can't be recycled, or 
material that can't be recycled locally. Contamination lowers 
the value of recyclable materials and can drain revenue from 
local recycling programs.
    When China imported much of our recyclable waste, we didn't 
have to worry much about that in terms of the contamination. 
China and other countries sorted our waste for us. Now that 
these countries have imposed import restrictions, we have been 
forced to confront contamination head on.
    State and local governments believe that if they can reduce 
contamination, they can find or develop new markets for their 
recyclable materials. Local recycling programs are responding 
in several ways. Some have launched campaigns to educate 
consumers about what can and cannot be recycled. Others have 
switched from single streams of recycling to dual or multiple 
stream recycling. Others have invested in new technologies that 
can sort materials with greater sophistication.
    The private sector has also taken additional steps to boost 
recycling capacity here in the United States. Consumer product 
companies have pledged to use more recyclable materials in 
their products and in their packaging.
    Companies are making investments in what is known as 
advanced recycling. Advanced recycling is a group of 
technologies that use heat or chemicals to break down certain 
plastics and other materials.
    With traditional or mechanical recycling, plastics can only 
be recycled a few times and generally for lower quality goods. 
Advanced recycling allows plastics to be reused indefinitely. 
They also allow plastics to be used for other high quality 
products. Advanced recycling won't replace traditional or 
mechanical recycling, but it can reduce the need to produce new 
materials.
    The COVID-19 pandemic has presented a new set of 
challenges. It has disrupted curbside recycling in many 
communities. Nine out of 10 States that have bottle and can 
redemption programs, have, to this point, suspended these 
programs because of the pandemic.
    It has also contributed to the collapse in crude oil 
prices, which reduces the value of many of the recyclable 
materials.
    Finally, COVID-19 has called into question taxes and bans 
on single use plastics. In its reopening guidelines, the 
Centers for Disease Control and Prevention has encouraged 
restaurants to use disposable food service items, such as 
utensils and dishes. We are talking about plastic spoons, 
plastic forks, plastic knives, plastic plates, as 
recommendations from the Centers for Disease Control and 
Prevention.
    California, Maine, Massachusetts, New Hampshire, New York, 
and Oregon, as well as a number of municipalities have delayed 
or suspended their bans and taxes on single use plastic 
shopping bags. Some State and city governments, along with 
nationwide retail chains, have now even prohibited reusable 
bags. The pandemic has reminded us that the critical role that 
single use plastics do play in protecting public health.
    To help us navigate these challenges, we have a panel of 
three experts who will help identify potential solutions for 
communities and companies alike.
    Senator Udall is also here, and he cares deeply about 
recycling, and is here to share his thoughts with the 
Committee.
    Before turning to Senator Udall, however, let me now turn 
to Ranking Member Carper for his opening statement.

          OPENING STATEMENT OF HON. THOMAS R. CARPER, 
            U.S. SENATOR FROM THE STATE OF DELAWARE

    Senator Carper. Thanks, Mr. Chairman. Thank you so much for 
scheduling this hearing.
    This is a hearing that Senator Udall, Sheldon and I, and 
others have sought for some time, and I am just delighted we 
could be here and warmly welcome our friend Tom Udall.
    I would like to also welcome Bridget Croke, and I would 
like to welcome Meghan and Nina. I think Meghan and Nina are 
here, but are just going to be joining us from afar, but we are 
delighted that you are going to be part of this presentation 
today.
    As some of my colleagues know, recycling has been a 
lifelong passion of mine. When I was 22, I was a young naval 
flight officer flying out of the naval air station in Moffett 
Field in California, lived in Palo Alto when we were not 
overseas, and I wanted to recycle.
    I found a place where you could actually take stuff in my 
Volkswagen Karmann Ghia, and go recycle. I would go there about 
every month, and I have never stopped.
    In the last year or two alone, I have recycled a Ford 
Exploder, I called it an exploder, a Ford Explorer; I have 
recycled paint thinners, electronics, televisions, a bundle of 
outdoor tree lights, a dehumidifier, and a whole lot more.
    My wife thinks I am crazy, but I am a big recycler.
    Today is her birthday, and I don't have any intention to 
ever recycle my wife. I will hold on to her as long as I have 
held onto my 2001 Chrysler Town and Country Minivan, and then a 
little bit longer, if she will put up with me.
    But anyway, recycling is a win-win-win solution. It saves 
our environment, grows our economy, creates jobs, as the 
Chairman has said.
    For a small State like Delaware, recycling is particularly 
important because, to be honest with you, we just don't have a 
lot of room for landfills. We are about 50 miles wide, about 
100 miles north to south. So we just don't have the extra room 
to store garbage and trash.
    As co-chairs of the Senate Recycling Caucus, Senator John 
Boozman, who is sitting right here with us, he and I have 
collaborated, as he knows, on a number of efforts this 
Congress, with the help of our staffs. We are grateful for 
that, and we have held stakeholder briefings, passed a 
resolution to recognize America Recycles Day, and asked Senate 
leadership to consider the recycling industry in future COVID-
19 legislation.
    We are also working on legislation that would gather much 
needed data about our recycling system and explore the 
opportunity for the U.S. to implement a national composting 
strategy.
    While I am proud of the work that Senator Boozman and I 
have done in recent years with the help of our staffs, I also 
know that we have more work to do, a lot more work to do. With 
a national recycling rate of just 35 percent, recycling is not 
a silver bullet solution to our waste management problems. We 
must also incorporate solutions that address reducing and 
reusing materials.
    That is why our friend and colleague Tom Udall is here with 
us today, to highlight both the challenges that single use 
plastics present to our society, and potential solutions to 
those challenges.
    As we discuss recycling challenges facing the U.S., and the 
Chairman has already mentioned a couple of them, we also need 
to focus on the challenges that plastics present to our 
recycling system, namely single use plastics.
    Since the mass production of plastics began in the 1950s, 
we have produced more than 8 million metric tons of plastics, 
half of which have been produced over the last 13 years alone.
    Of all the plastics ever produced, only 9 percent--only 9 
percent--have ever been recycled.
    If we continue down this path, the World Economic Forum 
predicts that we are on track to have plastic pollution 
outweigh fish in our world's oceans by 2050. Let me say that 
again, the World Economic Forum predicts that we are on track 
to have plastic pollutions outweigh fish in our world's oceans 
by 2050.
    The Great Pacific Garbage Patch is a harbinger of this 
crisis. That mass of marine debris floating in our oceans is 
more than 300 times the size of my State.
    But we don't have to voyage to the South Pacific to witness 
the world's recycling crisis. That crisis is burgeoning right 
here in the U.S., oftentimes in our own backyards.
    My wife and I live in Wilmington, Delaware. It is located 
not far from the I-95 corridor. When I head for DC on sessions 
days, if I am not on the train, I oftentimes take an on ramp 
near our home onto I-95 South, then head for our Nation's 
Capital on 95.
    Usually, a crew from DelDOT picks up litter along that on 
ramp that I traveled on this morning, as well as along other on 
ramps onto I-95.
    People throw their trash out of their vehicles when they 
get on the on ramps of I-95. They just say, well, this is my 
last chance, I am going to get rid of this, and that is what 
they do.
    Usually, there is a crew from DelDOT that picks up litter 
along the on ramps as well as other on ramps onto 95. During 
the pandemic, however, those pickups have occurred less and 
less frequently, leaving an unsightly mess that is, in a word, 
infuriating.
    The past month, the mowing crews have stopped showing up, 
too, until the grass grew to a height of 1 foot. My wife would 
drive by there and look at it and just become furious, until 
last week, that is. When the mowing crew showed up last week, 
they not only cut the grass, they shredded aluminum cans, they 
shredded plastic bottles, Styrofoam, trash bags, diapers, and 
more. As if it didn't look bad enough before, you can imagine 
what it looked like after that.
    I decided to do something about it, and thinking about my 
wife's birthday, this is what I did. This past weekend, I found 
an old DelDOT Adopt-a-Highway yellow fluorescent vest in our 
garage. I put it on.
    I grabbed a couple of large 45 gallon trash bags, climbed 
into my like new 2001 Chrysler Town and Country minivan, headed 
for a place to park not far from that on ramp, and went to 
work. Two hours later, the right hand side of the on ramp had 
been cleaned up. I loaded the bulging bags onto the back of my 
minivan and vowed to return the next weekend to finish the job.
    I tell you that story for this reason: As I drove home, I 
couldn't help but think about how concerned many of us in our 
neighborhood and in our State and around our country, how 
concerned we are about a great garbage patch in the sea on the 
other side of the world, even though we have a sea of garbage 
just a mile or so from, in this case, our own backyards.
    I couldn't help but think about how recycling just one of 
those Coors aluminum cans I picked up would have yielded enough 
energy to run a TV for 3 hours. Let me just say, if you are 
wondering what people who threw out trash are drinking, they 
are drinking Coors beer. I picked up I can't tell you how many 
other aluminum cans.
    Litter like that I have just described is not just an 
eyesore; it is wasteful. It is harmful to our environment. By 
not recycling properly, we miss an opportunity to do something 
good for our planet and its inhabitants.
    The amount of waste winding up on the side of the roads in 
our States and other States is, sadly, not unique to Delaware. 
In a lot of places in America, it is about to get worse.
    Prior to 2018, as the Chairman has said, the U.S. shipped 
enormous quantities of scrap recyclable materials to China. 
That came to a halt when China imposed new restrictions on 
certain imported materials coming in from other countries, 
including the U.S.
    As we grapple with the fallout of China's policies and the 
impacts of the coronavirus pandemic, the price consumers will 
have to pay for curbside recycling service is likely to rise, 
not fall. That means many consumers will be forced to make a 
choice, a Hobson's choice, either pay for recycling services, 
or put their money toward other basic needs.
    No American should have to debate whether they can afford 
to recycle, especially amid a pandemic that has caused great 
economic hardship, and whose effects are exacerbated by air 
pollution.
    When municipalities are no longer able to afford recycling, 
the Chairman has referred to this, the collected recyclables 
are oftentimes incinerated or pile dup in landfills, leaking 
air toxins into the air we breathe. Burning plastic or allowing 
plastic to melt in landfills not only contributes to climate 
change, but also pollutes the air we breathe.
    We can't afford to breathe toxic air even in the best of 
times, and we sure can't afford to breathe it during a 
respiratory pandemic.
    If you happen to be African American, the news is even 
worse. Black Americans are three times as likely to die of 
asthma related illnesses and are dying from coronavirus at 
three times the rate of white Americans, three times. None of 
us who profess to believe in the Golden Rule, and I think we 
all do, should turn a blind eye to a public health disparity of 
this magnitude.
    In closing, neither can we afford to turn a blind eye to 
those that will be most affected by the global uptick in virgin 
plastic production and our country's lack of recycling 
collection: Low income communities, indigenous communities, and 
communities of color that cannot afford to handle more waste, 
our waste.
    As we examine the challenges facing America's recycling 
efforts today, I hope we will begin a new discussion, a robust 
discussion, not just focusing on those challenges, but on the 
opportunities they bring with them to make Planet Earth a 
better home for all of us, and for God's creation, all of us 
who occupy it together.
    Thank you, Mr. Chairman.
    Senator Barrasso. Thank you very much, Senator Carper.
    Before we turn to our three witnesses, we would like to 
hear from Senator Udall. Senator Udall has a significant 
interest in recycling, and has helped the Senate advance the 
Save Our Seas 2.0 Bill earlier this year.
    Welcome back to the Committee, Senator Udall. For many 
years you were a long and productive member of this Committee, 
and we look forward to hearing from you now.

                 STATEMENT OF HON. TOM UDALL, 
           U.S. SENATOR FROM THE STATE OF NEW MEXICO

    Senator Udall. Thank you so much, Chairman Barrasso and 
Ranking Member Carper, and members of the Committee.
    It was a real pleasure working with Senator Whitehouse on 
that Save Our Seas Bill, and thank you for inviting me today.
    In recent years, Americans across our country have woken up 
to the fact that we have a plastic pollution crisis. A study 
released last week found that the equivalent of millions of 
plastic bottles rain down or are swept onto our western 
national parks each year in the form of tiny plastic particles.
    We know plastic doesn't go away, so when it breaks down, we 
find it 2 miles above sea level in the Rocky Mountains in the 
form of rain. Seven miles below sea level in the Mariana 
Trench, the deepest place in the ocean, there are plastic 
wrappers.
    It is in our own bodies. Research shows we swallow a credit 
card's worth of plastic every week through our air, water, and 
food.
    For too long, we have placed the burden on millions of 
consumers and taxpayers through curbside recycling and the hope 
that, if we dutifully sort our plastic into blue bins, we will 
reduce pollution. It is clear that this approach has failed.
    We cannot expect consumers to clean up all this plastic 
waste. We have lost sight of the foundation of our 
environmental laws and the teachings of Economics 101: The 
polluter, not the consumer or the taxpayer, should pay to clean 
up the waste.
    The place to focus is where plastic is created, at the 
front end of production, where millions of tons are created. 
But companies have no responsibility once they sell their 
product. More and more cheap, new plastic items are being 
produced that will never get recycled or reused.
    The burden falls back on our municipalities to manage a 
suffocating amount of plastic waste, costing local taxpayers 
billions of dollars a year across the country.
    Worse yet, most of that plastic recycling is a lie. It is 
actually landfilled, incinerated, and shipped overseas to 
developing countries.
    Is there any question why our local governments are 
shutting down recycling programs? Why do we force taxpayers to 
sort, clean, and transport plastic pollution at their own cost, 
after companies have profited from them?
    Take a look at this chart, and I hope there is a smaller 
copy up there with you, from 2017. Americans generated 35 
million tons of plastic waste.
    Only 8 percent of that waste was sorted for recycling. The 
vast majority was sent directly to landfills and incineration, 
and that 8 percent was mostly shipped overseas to developing 
countries. Only a tiny fraction was recycled domestically.
    We can't just place the blame on other countries for 
polluting the oceans. If we can't recycle or manage our own 
plastic waste here in America, how can we expect a developing 
country to do so?
    Here is the root of the problem: This is plastic that is 
not manufactured for recycling or reuse. This is plastic that 
manufacturers have designed for a one time use. It is the 
opposite of sustainable.
    Companies churn out new products, I want to show these 
around, companies churn out new products and outsource the 
cleanup of their waste to taxpayers, beach and highway 
cleanups, and good Samaritans, none of whom can keep up with 
the avalanche of waste.
    We need to return to the polluter pays principle and 
recognize who the true polluters are. My bill, the Break Free 
from Plastic Pollution Act, does just that. We start by 
dramatically reducing the manufacture of those items that 
pollute the most and can't be recycled.
    Plastic bags top the list, causing tremendous environmental 
harm. For other products and packaging, we reform how these 
items are handled after consumer use. Producers need to take 
responsibility for the collection, recycling, and disposal of 
the products they create. This will create powerful incentives 
to design products that are more sustainable and easier to 
recycle.
    This is a tried and true market proven concept. We already 
do this for batteries, paint, and other items that are 
dangerous if disposed improperly.
    Look closely at the soda bottle. Many U.S. States have had 
bottle deposits for decades. Using deposits on beverage 
containers greatly increases the return of those products for 
recycling and keeps them out of the environment.
    My bill also stops sending plastic waste overseas to 
developing countries and requires that new products be made 
from recycled plastic here in America. We need economies of 
scale to bring down the cost of recycled plastic compared to 
cheap new plastic. Many companies set recycled content goals, 
but are unable or unwilling to do so given the limited supply 
and high cost.
    Finally, my bill presses pause on expanding more plastic 
producing plants. These new, planned facilities are greenhouse 
gas super-polluters, and they are an environmental hazard to 
communities around them. If built, they are guaranteed to pump 
billions more tons of plastic waste into the environment.
    The lack of regulation on these facilities is shocking. 
Many Americans simply would not believe it. It is a scandal.
    This jar contains plastic pellets scooped from the 
riverbanks of Cox Creek, Texas, where Formosa Plastic is 
estimated to be discharging between 500 million and 5 billion 
plastic pellets each year. Around the globe, these plastic 
pellets are dumped, spilled, and lost to the environment at a 
rate of 250 thousand tons per year.
    It is shocking that there is no Federal ban on dumping 
plastic pellets in waterways. My bill would fix that.
    Colleagues, I was not the first person to become concerned 
with plastic pollution. There is a mass movement of people 
across our country who are fighting this awful situation. When 
people realize that the blue recycling bin is largely a lie, 
they are angry. They want answers.
    It is a shame that we are trashing our planet, but it is 
not the consumer's fault. This is not the fault of a few 
litterbugs. It is past time for Congress and the industry to 
step up on solutions to this problem.
    My legislation does just that.
    I would like to submit a letter for the record from 470 
organizations that support my bill, Mr. Chairman.
    Senator Barrasso. Without objection.
    [The referenced information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
     
    Senator Udall. I thank you for your time, and I am deeply 
grateful for this Committee's attention and involvement.
    Thank you, Mr. Chairman. I yield back.
    [The prepared statement of Senator Udall follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    Senator Barrasso. Thank you so much, Senator Udall. It is 
always good to have you back at this Committee on which you 
served so ably for so many years.
    But even after you left the Committee, you played a 
critical role in our agenda. In the 114th Congress, you 
successfully spearheaded efforts to reform our Nation's 
chemical law, the Toxic Substances Control Act.
    Like your father, you have been a tireless champion for the 
environment. Your father Stewart Udall, you know him, maybe 
some others don't, your father, Stewart Udall, served as 
Secretary of the Interior to both Presidents Kennedy and 
President Johnson.
    As you know, I think I got for you a photo of your father 
with Senator Kennedy in Laramie, Wyoming, at the University of 
Wyoming in 1963.
    So we welcomed both of them to Wyoming, and I have a 
picture hanging on my wall of then-President Kennedy addressing 
the group at the University of Wyoming in 1963.
    Of course, for people who aren't familiar with this, you 
may be watching from home, the Department of Interior's 
headquarters bears your father's name.
    This Committee thanks you for your service to our country. 
Thank you for being with us today, Senator Udall.
    Senator Udall. Chairman Barrasso, thank you for those 
generous words. You failed to note, though, I come every summer 
to Wyoming to the Wind River Mountains to backpack and hike and 
climb mountains, which is one of my favorite places in the 
world.
    Senator Barrasso. We look forward to having you back again 
this year.
    Thank you, Senator Udall.
    Senator Udall. Thank you.
    Senator Barrasso. With that, we are going to hear from our 
three witnesses today. We are joined by Bridget Croke, who is 
the Managing Director at Closed Loop Partners, and she is 
joining us remotely.
    We also have Ms. Meghan Stasz, who is the Vice President of 
Packaging and Sustainability at the Consumer Brands 
Association, and Ms. Nina Bellucci Butler, who is the Chief 
Executive Officer of MORE Recycling.
    I want to remind the witnesses that your full written 
statements and testimony will be made part of our official 
hearing record today, so we ask that you please try to keep 
your statements to 5 minutes so that we may have time for 
questions.
    We look forward to hearing the testimony, and with that, 
let me start with Ms. Croke.

                  STATEMENT OF BRIDGET CROKE, 
            MANAGING DIRECTOR, CLOSED LOOP PARTNERS

    Ms. Croke. Thank you, Chairman Barrasso, Ranking Member 
Carper, and Committee members.
    I will also mention that I also really love the Wind River 
Range.
    I am thrilled to have the opportunity to share my and my 
company's perspective with you, albeit remotely, and to see 
this topic discussed by national leaders.
    Senator Barrasso. Can you tell us where you are? I think 
you are in Vermont today, is that correct?
    Ms. Croke. I am in Vermont. We are headquartered in New 
York, but right now, we are all remote, and are not traveling, 
so apologies for not being there in person, but thrilled to be 
a part of this.
    Senator Barrasso. Thank you.
    Ms. Croke. As I mentioned, my name is Bridget Croke, and I 
am a Managing Director at Closed Loop Partners. We are an 
investment and innovation firm that has brought together 
private industry like Walmart, Procter & Gamble, Unilever, 
Nestle, and others, industry groups like the American Beverage 
Association, and investors including major banks, pension 
funds, family offices, along with environmental foundations to 
invest in the infrastructure and innovative solutions needed to 
minimize waste and ensure recycled materials become the 
manufacturing feedstock for future products and packaging, 
while hopefully creating good jobs and minimizing taxpayer 
dollars spent to manage waste.
    Over the last 5 years, Closed Loop Partners has deployed 
nearly $70 million in investment capital in over 50 communities 
and businesses across the United States, from Arizona, to Iowa, 
to Tennessee, and we have leveraged an additional $270 million 
in co-investment funds from public and private sources.
    I tell you this to make the point that we are on the ground 
turning our current take, make, waste economy into what we call 
a more circular economy, whereby we minimize the need to 
extract raw materials because we extend the use of those 
materials and remanufacture them back into new products and 
packaging.
    We know with the right systems in place, there are 
opportunities to turn waste into value. In our current system, 
nearly $10 million of commodity value are lost to disposal each 
year in the United States. Small and large communities are 
spending billions of dollars on disposal as others have 
mentioned, so we are literally throwing money in the trash.
    Unfortunately, the recycling industry has suffered from 
outdated infrastructure, especially small to medium sized 
communities. Over the last 30 years or so all across the 
country, there has been a significant lack of innovation in our 
supply chains.
    But that is starting to change, and good policy that 
incentivizes growth of this vital industry will bring more 
investment both to reduce waste and develop thriving 
communities.
    As mentioned also, the recycling markets have suffered from 
the closure of one of the biggest unused markets: China. That 
said, we and many others see this as an actual opportunity to 
accelerate domestic recycling and manufacturing infrastructure, 
which will help keep our dollars local.
    Given the attention on waste and marine debris and the 
growing demand for major consumer brands and retailers for 
circular packaging and recovery system solutions, we are 
beginning to see tremendous innovation that can rapidly advance 
solutions.
    I will give just a few examples. First is the introduction 
of robotics and artificial intelligence into the recycling 
industry. Companies like AMP Robotics have introduced robots 
with artificial intelligence systems that enable the sorting 
and production of high quality commodity bales of paper and 
plastics, while adding safeguards against contamination.
    The second is packaging innovation. We are seeing the 
emergence and growth of smart, refillable packaging systems 
like Algramo, that make it cheaper, safer, and more convenient 
for consumers to use packaging more than one time. We are also 
seeing significant growth in packaging that is designed to be 
recycled for value.
    Finally, we are seeing advanced plastics recycling 
technologies, including purification technologies and chemical 
recycling technologies mentioned earlier. I just want to frame 
that as a whole category of technologies that remove impurities 
from recycled plastics or take plastics back to their base 
monomer, intermediary, or carbon state in order to 
remanufacture them into a new plastic.
    These technologies have the potential to create, in 
success, infinite circular economy and value loops for 
plastics.
    These and other advancements are attracting significant 
private capital from leading investors. Google and Sequoia have 
invested in AMP Robotics in Colorado; Goldman Sachs is now the 
largest shareholder in Lakeshore Recycling Systems, the largest 
independent recycler in Illinois; and Citi is the largest 
investor in rPlanet Earth, a bottle to bottle plastics 
recycling facility in Southern California.
    Leading municipalities, recyclers, manufacturers, and 
consumer brands are starting to partner together to establish 
and profit from a circular economy in the United States where 
goods are continually manufactured using recycled material 
collected from recycling programs in towns large and small. 
This new partnership model is developing a circular economy 
that we believe will result in one of the largest investment 
opportunities in the United States over the next decade.
    The additional economic impacts include major reduction in 
waste disposal fees paid by municipalities, and will become a 
significant driver of job creation in local economies.
    We encourage you to develop policies that build incentives 
and spur market demand for recycled content and packaging of 
products, drive product and system innovation to eliminate 
waste, and create good jobs that benefit both the economy and 
the planet.
    Thank you.
    [The prepared statement of Ms. Croke follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    

    Senator Barrasso. Thank you so much for your testimony. 
Please hang around. I know we are going to have a chance to ask 
questions in a little bit.
    We are going to hear from our other two witnesses first, 
and next is Ms. Meghan Stasz, who is the Vice President of 
Packaging and Sustainability at the Consumer Brands 
Association.
    Thanks so much for joining us today.

  STATEMENT OF MEGHAN STASZ, VICE PRESIDENT OF PACKAGING AND 
          SUSTAINABILITY, CONSUMER BRANDS ASSOCIATION

    Ms. Stasz. Thank you.
    Good morning, and thank you Chairman Barrasso, Ranking 
Member Carper, and members of the Committee for the opportunity 
to speak to you today.
    I would also like to thank Senators Sullivan and Whitehouse 
for your bipartisan work on the Save Our Seas 2.0 Act, as well 
as Ranking Member Carper and Senator Boozman for your 
leadership as co-chairs of the Senate Recycling Caucus. We were 
deeply honored and grateful for your participation at the 
inaugural meeting in January of the Recycling Leadership 
Council.
    Chairman Barrasso, let me reiterate my appreciation for 
calling this hearing, and for the invitation to testify. The 
challenges that we face in resolving the barriers to a better 
recycling system need thoughtful leadership, and we thank you 
for this Committee's engagement.
    As you said, I am Meghan Stasz, Vice President for 
Packaging and Sustainability at the Consumer Brands 
Association. We represent the consumer packaged goods, or CPG, 
industry. We make household and personal care items and food 
and beverage products, contributing $2 trillion to U.S. GDP and 
supporting more than 20 million American jobs.
    The products that we make are essential to every American 
every day. The products that we make must also come in 
packaging, packaging that protects safety and quality.
    But packaging can be better, and that is something the 
industry is actively working toward. We have made significant 
commitments to improving the design of packaging: Less 
material, fully recyclable or compostable, using more recycled 
content. There is tremendous momentum and innovation.
    All of this momentum and innovation relies on a functioning 
recycling system, and today, that system is at a breaking 
point. Recyclable packaging ends up where it shouldn't, in 
landfills where it can't be reused, or even worse, as 
pollution.
    But we can't be daunted by the challenge of fixing our 
broken recycling system. If anything, this is a tremendous 
opportunity to create something new and lasting.
    To achieve that goal, there are five challenges I would 
like to call the Committee's attention to. The first is that 
there is a market opportunity that is currently going unmet. 
Many of the industry commitments I mentioned center on using 
recycled content.
    Unfortunately, at present, the domestic supply of recycled 
plastics is only able to meet 6 percent of current demand. The 
market clearly exists, and an important challenge to understand 
is, why is recyclable material getting landfilled?
    The second challenge is that our system is far too 
fragmented and confusing. There are nearly 10,000 recycling 
systems in America, each with their different rules. Consumer 
Brands found that Americans think recycling is more confusing 
than doing their taxes.
    It is getting even more confusing. We are seeing fewer 
materials accepted, or programs shutting down entirely because 
recycling was upended when it lost China as the biggest buyer 
of U.S. recyclables. Losing that customer exposed the need for 
greater innovation and investment here in the U.S. to ensure 
that recycling has a future.
    The third challenge isn't a need for funding; it is a need 
to figure out what to fund. There are many ways to pay for 
changes.
    We discussed six concepts in a policy platform that we 
released in April, but we will land in the same place if we 
don't advance smart, strategic changes to the underlying 
recycling system. We should use financing to drive desired 
behaviors, to solve specific problems, not simply to overlay 
additional funds on a system that isn't working.
    The fourth challenge is ensuring every stakeholder is in, 
or recycling will be out. We believe no single industry can 
solve the packaging and waste crisis alone.
    This year, the Consumer Brands Association launched the 
Recycling Leadership Council, which is a coalition of 21 
stakeholders from consumer facing industries, the packaging 
supply chain, and NGOs. Together, we are building a public 
policy framework to fundamentally reimagine recycling in the 
U.S.
    The last challenge that I will mention is really the first 
step we need to take. We don't have consistent, reliable 
recycling data that is needed to make informed decisions. There 
is no standardized or required reporting on recycling 
nationwide. There isn't even a standardized definition of 
recycling.
    As the saying goes, you can't manage what you can't 
measure. Without a clear picture of what is happening in States 
and municipalities, we can't effectively target solutions. From 
what little data we have, we know one thing is clear: Recycling 
isn't working as it should.
    We need the Federal Government's help, so two places I 
would flag: Require better data, building on work that has 
already been started by Senator Carper, and encourage recycling 
infrastructure and end-market development.
    We really applaud the clear commitment of Chairman Barrasso 
and Ranking Member Carper in leading this Committee's focus on 
recycling, and I look forward to your questions.
    [The prepared statement of Ms. Stasz follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
 
    
    Senator Barrasso. Thank you so much for your helpful 
testimony.
    We look forward to the questioning in just a few moments.
    First, I would like to turn to Ms. Nina Bellucci Butler, 
who is here, the Chief Executive Officer of MORE Recycling.
    Thank you so very much for joining us today.

              STATEMENT OF NINA BELLUCCI BUTLER, 
            CHIEF EXECUTIVE OFFICER, MORE RECYCLING

    Ms. Butler. Thank you, Chairman Barrasso, Ranking Member 
Carper, and members of the Committee.
    I am Nina Bellucci Butler, CEO of MORE Recycling, a 
business of Sena.
    We as a Nation are at a great inflection point, and you 
have an opportunity to deploy meaningful and proven policy 
solutions for communities across this great Nation struggling 
on so many levels right now.
    I am thinking about the rural communities in my birth State 
of Kentucky to my previous home in San Francisco, California. 
It is time to unlock economic drivers to manage resources 
sustainably and circulate capital throughout America, not just 
in the wealthy regions.
    Until we establish policy that places the cost and benefit 
of a healthy environment on the balance sheets of companies and 
countries, we risk further erosion of the infrastructure and by 
extension, the environment on which our children's lives 
depend. I have two of them.
    Recycling is not just about cutting down waste heading to 
landfills that our children will need to endure; it is about 
the dramatic energy savings we get out of recycling. Take 
bottles, for example, such as detergent bottles. Using recycled 
plastic cuts the amount of energy by almost 90 percent.
    I got involved in plastics in the year 2000. I actually 
felt destined to go to med school and had a desire to study the 
threat of plastics on our health.
    In 2003, I had the opportunity to travel down the amazing 
Amazon River, and I remember looking out in Manaus and seeing 
an entire layer of plastic film. The water level was low, and 
it was like a geologic layer, this stratum of plastic.
    I was lured then by the notion that if we just implemented 
the best programs, we could solve the plastic waste problem. I 
have had 20 years of working directly with the plastics 
industry and the recycling industry. I have come to the very 
firm conclusion that we need significant policy to right our 
course for plastic waste, which is inextricably linked to 
climate change.
    While the economics are straightforward, the environmental 
trade offs around plastics are extremely complex. Plastics are 
a paradox. They benefit society on so many levels.
    Think about what you are not willing to give up that is 
plastic. Plastics have given us truly supernatural abilities, 
from flying, diving deep in the ocean, clear eyesight, better 
hearing, communicating with friends and family around the 
world. They got me here from Chapel Hill, North Carolina, in 
less than a day. That is supernatural.
    However, plastics present enormous environmental 
challenges. Plastic scrap exists, as Senator Udall said, 
everywhere from the Mariana Trench to the Great Pyrenees.
    It is simply unethical to make something that nature cannot 
absorb and not provide a system to manage it. It is imperative 
that we look at the problem and unlock this plastic paradox 
holistically. The gap between new plastic produced and plastic 
recovered is widening, and the recycling rates are trending 
downward from already a failing grade.
    I have some charts. So, we can see here that we have been 
increasing the amount of domestic recycling for many years, and 
that was, in a sense, a comfort, and we were seeing a decline 
in export, even before the national soared. But the reality is 
we still are at absolute failing grades. In the last 2 years--
our company tracks this data--we have actually seen a decline.
    This is the real reality of putting this notion together. 
This is the recycling capacity in the United States right now 
for a major category.
    That is polyolefins, and this is the production capacity 
for the top--just the top 10--virgin resin producers. We have 5 
percent of this capacity. It is going to take a lot more than 
forward thinking company investment or asking people to recycle 
better. It costs more to recycle than to waste or use virgin 
plastic.
    Here is the current cost of a virgin material on the spot 
market. Here is the cost of process to get to high quality 
going back into food grade.
    But it doesn't have to be this way if we put value on 
energy savings. Just getting recycled content in trash bags, 
which is very common in countries throughout Europe, could have 
a dramatic impact. It would be more than the equivalent of 2 
million tons of CO<INF>2</INF> savings on something that is 
already destined for landfills.
    Instead of plastic recycling on a growth plan, we have a 
trickle compared to a tsunami of new plastic production. We 
learned from the University of Utah, as Senator Udall said, it 
is raining plastic, and that is a problem worse than acid rain.
    With today's lifestyle in which we can get what we want 
when we want it from wherever, thanks largely to plastic, it is 
clear we have the knowhow to produce and distribute products. 
Therefore we surely have the skill sets to design elegant, 
reverse logistics to recapture the product.
    It is not a moon shot; it is an Earth shot. We just need 
economic drivers in the right place. We need to put value on 
carbon.
    We need the leadership and cooperation to unleash human 
ingenuity to design, implement, track, and optimize a 
sustainable resource management plan, or a North Star. Because 
what is equally as scary as plastic waste is the realization 
that if we just omit certain plastics without changing our 
consumption patterns and our economic model, we will quadruple 
the greenhouse gas emissions on a regular basis.
    Leaders, even in the petrochemical companies, see policy as 
a means to create competitive advantage to those companies that 
lean all the way into the circular economy.
    It is an honor to appear before you today to share my 
expertise on recycling and more efficient, mindful use of 
resources.
    Thank you.
    [The prepared statement of Ms. Butler follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
   
    
    Senator Barrasso. I appreciate your testimony, and 
specifically the trip in 2003, the Amazon experience, which has 
now brought you passion as well as expertise.
    There is a marvelous book, Running the Amazon, which a 
couple of my buddies from Wyoming have done, and this was back 
in the 1980s. The experience that they had; it just must have 
been amazing. So thank you so much for sharing with us today.
    I would like to turn to Ms. Stasz. The COVID-19 pandemic 
has reminded us of the value of single use plastics. Single use 
plastics have been indispensable in protecting medical 
professionals, first responders, others who are on the front 
line caring for patients and fighting the virus.
    Can you share with us some lessons about single use 
plastics and what States and municipalities should do to cut 
down on plastic pollution, and what we can learn from this 
pandemic and the unique situation in which we find ourselves?
    Ms. Stasz. Yes, thank you, Chairman. That is an excellent 
question. I think the COVID pandemic has shown that there is a 
real need for a range of packaging materials, that packaging 
has this critical job to play, in particular, safety, quality, 
protection of product.
    What it is also showing is that we need a system that can 
handle and process those materials. We need a 21st century 
recycling system that can handle the packaging that is needed 
today and that is in use today and the packaging that is being 
developed for tomorrow.
    Senator Barrasso. In 2017, China said they would restrict 
most of the imports of mixed paper and mixed plastic, 
continuing along the line of what you just talked about. So 
since then, the private sector has taken steps to increase the 
capacity to recycle these goods here at home.
    What are the most noteworthy actions taken by the private 
sector to date?
    Ms. Stasz. China closing their doors to our recyclables 
really exposed a shocking lack of infrastructure here, 
domestically. Our industry has taken aggressive commitments to 
improve our packaging, but we need that underlying recycling 
system to work.
    We are still in a supply and demand break. We are still in 
a supply and demand challenge.
    Our industry has certainly innovated, we have invested in 
improvements, and I think we need all stakeholders at the table 
to rebuild and reimagine that recycling infrastructure here 
domestically, creating jobs, and filling that supply for the 
demand that is out there.
    Senator Barrasso. Ms. Croke, I don't want you to feel lost 
up there in Vermont, I want you to feel engaged in all of this. 
I have a couple questions for you.
    First, in terms of the single use plastics that we have 
heard are difficult to recycle, too often single use plastics 
end up, as we hear, in rivers, oceans, where they threaten and 
kill wildlife and present all sorts of problems.
    What are the most promising advanced recycling technologies 
when it comes to single use plastics?
    Ms. Croke. Great question, and I might back up a little bit 
and just note that we believe that there is no one solution, 
there is no silver bullet. We are not going to solve this with 
an individual innovation.
    We need to look at reduction strategies, and we need to 
look at ways to recover those materials at the end of life. So 
we are both seeing on the reduction side, refill models that 
make it easier and safer to use some plastic types more than 
once.
    Then we are also seeing new advanced recycling 
technologies, both in terms of, as I mentioned, robotics and AI 
and recycling facilities to sort those materials out. But the 
ability to actually turn plastics into another plastic in a 
high value way, again and again, through some of the chemical 
technologies and purification technologies.
    One example is a company called PureCycle, where if you 
have, for example, a polypropylene yogurt container that you 
recycle, there is very little market for that today. But if you 
can turn that back into a clear pellet that doesn't have smell 
or color in it, it can go into a new packaging just like a 
virgin material. That is used through an enzymatic process.
    There are a lot of different technologies out there. There 
is no single technology within that category. As we see the 
conversation grow and policy grow in this space, that is a 
market demand driver that brings innovators to the table.
    Senator Barrasso. So, still to you, Ms. Croke, the COVID-19 
pandemic has contributed to a collapse in crude oil prices. We 
have seen this worldwide. Lower crude oil prices make it 
cheaper to produce virgin materials, especially plastics.
    What are the practical impacts for local recycling programs 
looking to sell their recyclable materials, companies looking 
to increase the recycled content in their products, things 
along those lines?
    Ms. Croke. It is a question I can't say that we have a 
final answer to. The markets are highly volatile right now, and 
we don't know exactly where they are going to go. I wish we 
did.
    What I can say is that with COVID, we have seen that both 
on the fiber and plastic side, that it is clear that we need 
that material going into the manufacturing supply chain.
    When we saw a lack of access to toilet paper and other 
items that typically have high recycled content in them, it 
showed us how critical that feedstock is, and the same thing 
with packaging. We know companies that couldn't make enough 
pumps for their cleaning products to get them out to customers, 
because they couldn't get that material.
    If we can build the supply chains around recycled content, 
we know that material exists. So if we can get it collected and 
get it back into those products, that will help manage the 
supply chains.
    On the plastics pricing issue and on the oil prices, it is 
definitely a risk, and we need companies to be able to make 
long term contracts, off ticket contracts, for those materials 
to help even out the prices so that we can scale the system 
where recycled content goes back into the manufacturing supply 
chain, so it that can compete with the raw material supply 
chain.
    Senator Barrasso. Thank you.
    Senator Carper.
    Senator Carper. Thanks, Mr. Chairman.
    Again, our thanks very much to each of our witnesses for 
joining us today, and it is great to be with our colleague, Tom 
Udall, especially.
    I really appreciate what you said about Tom's family, 
especially his father. I know that they have a lot to be proud 
of. And we are proud of him as well.
    I am a glass half-full guy. My colleagues would tell you, 
some of them say, one of them said the other day that I am the 
most unrelentingly optimistic person they know.
    Sitting here in this hearing today, I am not feeling 
optimistic. I always look at problems, I think, Oh gosh, this 
is, in adversity lies opportunity, that is Einstein's words, 
and this is going to be fun. We will put together a team, and 
we will figure out how to address this.
    But this is a daunting challenge. This is a daunting 
challenge. I am a big believer in not just focusing on symptoms 
of problems. I told the story about taking my two 45 gallon 
plastic bags, trash bags, and collecting litter on the on ramp 
to I-95; that is addressing the symptoms of the problems.
    I am a big believer in addressing root causes. I am also a 
big believer that there is usually no silver bullet to solve 
most of our problems. There are a lot of silver BBs. Some of 
them are bigger than others, and you helped address and draw 
our attention to some of those.
    I always like to say, I felt this way when I was Governor 
and wrestling with the problem in Delaware, I would always say 
to my cabinet when we are trying to figure out what to do on a 
particular issue, including recycling, and I would say, let's 
look at other States. Let's find out what other Governors are 
doing; let's find out how we can learn from them, and take 
their ideas, and maybe rework them and use them in our State. 
So I would like to find out what works and do more of that.
    Right now, I would like to figure out what is our role, the 
role of the Federal Government.
    The EPA has made an effort to bring together recycling 
industry stakeholders. I commend them for that. That includes 
municipalities, businesses, non-profits, and others to discuss 
how the U.S. can increase recycling rates across all 50 States.
    There is a consensus that the Federal Government can play a 
greater role in facilitating recycling, but the details of what 
that role should be are subject, as you know, to debate.
    A question for each of our witnesses: In your view, how can 
Congress best build on EPA's and stakeholders' efforts, and 
what should the Federal Government's role be in this challenge?
    Let's just start with Senator Udall if we could, and then 
we will go to Bridget, Meghan, and Nina.
    Tom. Is he gone? All right.
    OK, Tom, you can mail it in.
    We will go to Bridget, to Meghan, and to Nina. I have heard 
him address this enough times that I could probably do it for 
him, but I won't.
    Bridget, you go first, please.
    It is a problem when you have hearing rooms this big. It is 
like a football field in here.
    Ms. Croke. Thank you for the question. I think a lot of the 
proposals that are on the table have a lot of value in them, so 
again, I don't have a [indiscernible] solution to this.
    I would say that we have a massive industry of raw 
materials, and building up a system that aggregates recycled 
content material and helping it compete with the raw material 
market requires the same incentives that the raw material 
markets get. Tax incentives and other ways that you can 
incentivize market demand for this material, so that companies 
can turn their commitments into actions more easily, and kind 
of make the economic case for that, and accelerate that.
    We believe that at scale, a circular system can compete 
economically with a linear system where you are extracting 
materials, using it, and disposing of it. But we need to build 
up that system. So the incentives to help build that system to 
be on par with the raw material market would be incredible.
    Senator Carper. Thank you, ma'am.
    Meghan.
    Ms. Stasz. Thank you, Senator Carper. I think there are a 
couple of things that the Federal Government can do. I agree 
with you that this is daunting, but this is also an 
opportunity. We have an opportunity to rebuild a functioning, 
effective, efficient recycling system here, domestically now. I 
think hearings like this are such an incredible opportunity to 
put those big ideas on the table.
    The first thing that I think Government could do, which I 
said in my testimony, is around standardization and data 
collection. We want to raise recycling rates in the States, but 
we don't know what the baseline is. We don't know what the 
recycling is in most States. So how can we get that 
standardized, harmonized data collection, so that we at least 
know where our starting point is.
    The second piece, and this is part of the three part 
platform that Consumer Brands Association put out in April, we 
think there is a terrific role for the Federal Government to 
play in end market development. Creating this infrastructure 
creates jobs.
    North and South Carolina is a great example. There is $250 
million invested in plastics recycling infrastructure in those 
two States, but the State needs more supply. Those facilities 
are running under capacity. So North and South Carolina have 
launched a program called Your Bottles Mean Jobs, encouraging 
households to recycle just two more bottles a week, which would 
contribute $10 million in economic benefit and support 300 
jobs.
    There is opportunity here. There is a great role for the 
Federal Government to play in terms of leadership for 
incentivizing infrastructure development.
    Senator Carper. Thank you.
    Nina, same question.
    Ms. Butler. Is this very specifically about what can be 
done right now given current stakeholders and with the EPA, or 
is it something longer term? I just want to clarify between 
short versus long term.
    Senator Carper. Longer term. The role of the Federal 
Government, longer term, from this day forward.
    Ms. Butler. Long term, I think we fundamentally have to 
establish North Star policy that is grounded in valuing carbon, 
that is a sustainable materials management plan that includes 
extended producer responsibility, so that we can truly level 
the playing field and set the right economic drivers in place.
    Senator Carper. All right, thank you ma'am.
    Thank you all.
    Senator Barrasso. Thank you, Senator Carper.
    Senator Inhofe.
    Senator Inhofe. Thank you, Mr. Chairman. I am going to ask 
questions of two of the witnesses, and I will start with Ms. 
Stasz. And then I have a second question for you if there is 
time after I go to the second witness.
    We are talking about, it has been introduced, a bill that 
would put in place a ban of many single use plastics. I would 
ask you, Ms. Stasz, what are some of the unintended economic or 
environmental impacts of the alternatives? There are 
alternatives that have been named, but I would like to know 
some of the problems that may be there for those alternatives.
    Ms. Stasz. Thank you for that question, Senator. As we 
said, packaging has this really critical job to play. It 
protects the safety, quality of products, and as we just 
mentioned, the COVID pandemic laid bare the need for a range of 
packaging, including single use plastic packaging.
    What we need to make sure is that we have all options on 
the table when it comes to packaging types, because there is a 
range of consumers in terms of the packaging that they need for 
their use. There is a range of products that need different 
packaging.
    We have entire teams of Ph.D. packaging engineers who are 
spending their careers making sure that the packaging that is 
used for a product is the best one possible to do its job, to 
get the product to consumers safely and intact and with minimal 
environmental footprint.
    What we don't want to do is take arrows out of the quiver, 
right? We want to make sure that we have all those options on 
the table, but a system that can actually process them.
    Because forcing switches in packaging material, if they 
don't have a full life cycle analysis in mind, they can cause 
those unintended consequences, potentially more greenhouse gas 
emissions, or they might be fragile and break, and you will 
lose the product, and you waste food, et cetera, when I think 
about the role that packaging has to play.
    I think we want to have a recycling system that will accept 
and use and keep that packaging in play, keeping it out of 
landfills, and absolutely keeping it out of the environment.
    Senator Inhofe. That is good, I appreciate that.
    Now, I wanted to ask a question of Ms. Croke, and it may 
sound like it is a little stretch in this Committee, but I 
think it is very important to me. I would like to have you 
share your thoughts on probably one of the most discussed 
recycling problems that is out there, and that is of electric 
car batteries. Would you share with us your knowledge on this?
    Ms. Croke. Sure. Look, I am not an expert in battery 
recycling, but what I can tell you is that certainly, the fact 
that this is an emerging growth industry, and that 
[indiscernible] waste and battery waste and things adjacent to 
that are still emerging, that it is in early days in terms of 
solving some of these challenges.
    So, as you can see, with the plastics issue, where there 
has been significant attention drawn to it over the last couple 
of years, when you put the microscope on something, that is 
when stuff happens. That is when we can actually make change.
    So in order to solve getting away from some of the raw 
material inputs that go into that and being able to re-utilize 
the high value material that is coming out of that, we need to 
actually put attention into what the problem is and the 
innovation that can come around that.
    I might just add to Meghan's answer on the previous 
question as well, it is also not binary in terms of what exists 
today versus solving for packaging or processing. We have to 
solve for both.
    An example of that is we invested in a company called 
Cambridge Props, which has a silk protein that goes over food 
from meat to produce, et cetera, that helps extend the shelf 
life, that removes the need for as much packaging around that.
    At the same time, there is critical packaging that is 
needed. So we need to drive innovation. We need to drive system 
innovation and product innovation. That is true for plastics, 
paper, and battery recycling.
    Senator Inhofe. Let me get to the second part of the first 
question. That would be, and this is for Ms. Stasz, would you 
speak to the economic impact that a ban, such as the ban that 
has been discussed, would have on the cost of living for middle 
class Americans?
    Ms. Stasz. Yes, I can, Senator, and thank you for that 
question. We want to make sure that the products that U.S. 
consumers use and rely on every single day are delivered 
safely, intact, and affordably. Affordability is certainly part 
of the decision around what is the best packaging for that 
product.
    So for banning certain materials, or taking those arrows 
out of the quiver, we could, unintentionally, be driving up the 
cost of getting product to consumers, or creating unintended 
waste. That is certainly not an outcome that we want to see, 
and again, I think we need that underlying system that can 
handle the packaging that is the best for the product, the 
packaging that is in use for today, and the packaging that is 
in use for tomorrow, so that we don't see unintended 
consequences like increased cost to consumers.
    Senator Inhofe. Very good. Thank you very much.
    Thank you, Mr. Chairman.
    Senator Barrasso. Thank you, Senator Inhofe.
    Senator Whitehouse.
    Senator Whitehouse. Thank you, Chairman, and thank you both 
for this hearing and for your support of our plastics efforts 
over time.
    I see that Senator Sullivan came in, and he has been a 
wonderful companion working on this legislation.
    It strikes me that when there is a whopping failure, and I 
don't think there is any way to describe recycling as anything 
other than a whopping failure when less that 10 percent of 
recyclable product gets recycled, even when it is put in the 
bin by a consumer, that the problem is usually one of 
incentives.
    It also strikes me that when the problem is one of 
incentives, that usually means the problem is revenue. I think 
the question for us here is, what is the revenue proposition 
for an investor in better recycling?
    I remember traveling with our friend John McCain to Mali 
when there was extremist uprising, and we went to see the 
troops who were deployed there. When I drove from the airport 
into Bamako, I looked at the fields nearby, and I thought to 
myself, how could there be so many ravens, or crows? What are 
these fields that are just filled with black birds?
    It turns out there weren't black birds at all. They were 
black plastic trash bags that had hooked onto a piece of ground 
and were flapping in the wind and looked, at first glance, like 
a bird. It struck me that in a country as poor as Mali, if you 
could just give people a penny for turning in one of those 
plastic bags, they would be gone.
    I note that Unilever, which is probably the most forward 
looking company on this, has said that it is going to take a 
pound of plastic out of the environment for every pound of 
plastic it puts into the environment through its products. It 
is going to be a lot harder for Unilever to find that pound of 
plastic coming out than it is to put it in as packaging.
    But when they do that work, they will end up having to pay 
people to get the plastic out of the environment. That creates 
a revenue proposition.
    I am sorry that American companies aren't doing as well as 
Unilever on that front, and I note with some sorrow that when 
the American business community speaks for market solutions, 
their interest in market solutions usually evaporates when it 
comes to paying the cost of cleaning up their mess. Suddenly, 
that is not such a great market solution.
    Then they want partnerships and programs and reimagining 
and public relations efforts, and anything but putting the 
revenue out there to create the incentive to clean up their 
mess.
    That is the way economics is supposed to work. Senator 
Udall described it as Economics 101. It is Economics 101 that 
the cost of the mess of your products should be baked into your 
product.
    Tell me where you disagree with me in that analysis, and 
tell me what you would support in terms of getting a revenue 
proposition out there to create what we all need, which is, we 
want to have 100 percent recycling. But until it pays somebody 
to pick up the Coca-Cola bottle and put it in a bin, and until 
it pays somebody to make sure that once it is in the bin, there 
is better than a 1 in 10 shot that what is in the bin is 
actually going to get recycled, this isn't going to work.
    So let me start, if I may, with Ms. Stasz, because she has 
big Rhode Island connections.
    [Laughter.]
    Ms. Stasz. I do. The best State.
    Senator Whitehouse. The best State. Thank you.
    Much better than Wyoming, all this big talk about Wind 
River. We got Narragansett Bay, Mr. Chairman.
    [Laughter.]
    Ms. Stasz. You raise a really excellent point, Senator, and 
I think especially around Economics 101 and what is the revenue 
proposition here.
    As I said in my testimony, certainly for recycled plastics, 
the demand signal is there. It is strong. All of the 25 largest 
CPG companies that have made big commitments to improving their 
packaging somehow, largely by dramatic increases in recycled 
content.
    But as Nina pointed out, the supply isn't there. So what is 
the break in the Econ 101 value proposition? I think that is a 
really important question for all of us to consider.
    When we think about financing these systems, how do we spur 
investment or how do we finance recycling and improvements to 
recycling?
    There are a number of different ways to do that. We put out 
six different funding concepts in the policy platform that 
Consumer Brands released in April.
    What we wanted to do was identify not just funding ideas, 
but funding ideas that solve specific problems, that get to 
underlying problems in the recycling system and use funding to 
fix those problems to drive intended outcomes.
    There is a range of ideas in there that get at those 
targeted problems, one of which is a fee on packaging. We were 
talking about other concepts like landfill tip fees. There is a 
whole host of ideas out there that can be used in the right 
circumstances. But any financing that goes to improve 
infrastructure, it has got to solve specific problems in the 
recycling supply chain.
    Senator Whitehouse. Mr. Chairman, I am over my time, so if 
I could invite the other two witnesses to respond to that 
question as a question for the record, just provide a written 
response per the Committee's rules, that will allow you to move 
on to other Senators who are present.
    Senator Barrasso. Thank you, Senator Whitehouse.
    Senator Rounds.
    Senator Rounds. Thank you, Mr. Chairman. I recognize that 
this discussion today is about recycling. But I am really 
curious because in most cases, the reason for the recycling in 
the first place is to try to get some of this product back out 
of the environment in the first place, in particular, those 
items that have a very long life.
    In this particular case, we are talking primarily about 
petrochemical based products. These petrochemical based 
products, these polymers, have a very, very long if not 
indefinite lifetime. Therefore they get into the environment, 
and they don't leave. They just get smaller, more broken up, 
but they still remain there.
    I haven't heard one item of discussion today about the 
alternative, which would be a biopolymer, rather than a 
petropolymer, a biopolymer made out of soy based products and 
so forth.
    I would really like to know whether or not you see a future 
for our biopolymer products that are produced right now; they 
do not have an extended lifespan. Yet, with the research that 
has been going on for 30-plus years, there appears to me to be 
a very reasonable expectation that a biopolymer product 
replacing a petropolymer product should seem at least part of 
the discussion when we talk about trying to recycle.
    I would just like, very quickly, just to kind of go down 
the line, and get a thought, are we missing something by not 
talking about the promotion of bio-based polymers in the 
packaging and in the short lifespan needs of so much of what we 
use plastics for that are petrol-based today?
    Let's just start with Ms. Croke to begin with, and kind of 
move our way down.
    Ms. Croke. Great question. What I would like to do is just 
break this into two pieces that sometimes get confused, not 
that you are confusing this, but just in general for the 
broader audience.
    There is a difference between bio-based polymers that turn 
into a polymer that acts and looks like any other polymer, and 
at end of life, reacts like every other polymer and can be 
recycled. Then there are compostable solutions that look and 
act like plastic, but can actually break down, at least 
theoretically, into a compostable solution.
    So I break those into two items. I think they are both 
viable and on the table, especially if you think about making 
biopolymers that are still going to, at end of life, have to go 
through the same processes as regular polymers, but you extract 
less petrochemicals, and if you can identify sources of that 
biomaterial that are going to be waste products, even better.
    We have seen companies like Origin Materials that use waste 
cellulosic material and turn that into a polymer. Super-cool, 
great opportunity, lot of investment going into that.
    The compostable plastics are also a potential opportunity, 
especially for items that are unlikely to be recycled ever, 
because they are food contaminated or they are very small and 
can't go through a recycling system.
    That said, if we are going down that path, we really need 
to think about investment in our food waste, our composting, 
and anaerobic digestion infrastructure, which we are investing 
in through and across many of our funds.
    I think there is significant opportunity there. But you 
can't create products like that without thinking of the 
infrastructure and making sure that material is actually bio-
available, so that when there is a product coming out of that 
compost facility, it is high value and can be sold, just like a 
recycled item.
    Senator Rounds. Thank you.
    Ms. Stasz.
    Ms. Stasz. I will admit that I am not a chemist, so your 
knowledge on biopolymers is likely more advanced than mine.
    I think what I would say to that is that we need a range of 
packaging materials. We need a whole suite of options in terms 
of what is the best material. And there are so many new 
materials, new innovation happening in the packaging space. And 
to Bridget's point, we need a system that can process and 
handle those.
    I think another point here would be that whichever 
materials we use and whichever system we use to handle, 
process, recycle them, keep them out of landfill, as much as 
possible, we should have clear, harmonized standards so that 
consumers aren't confused about what to do with that particular 
container, if it is a biopolymer or a more traditional plastic. 
But 10,000 different recycling systems in the U.S., every 
single one with their own set of rules, it is incredibly 
confusing.
    So, regardless of which kind of material we are using, I 
think it is important that we have clear, consistent 
guidelines, harmonization, so that we can reduce consumer 
confusion and help consumers do the right thing with their 
packaging when they are done with it.
    Senator Rounds. Thank you.
    Ms. Butler, would you like to respond?
    Ms. Butler. Sure. Yes, this is actually what my master's 
project was on at Duke University because I absolutely have 
this allure of like, why can't we just make these materials out 
of natural materials. This is a no brainer.
    But this is the complexity of plastic. You can't have it 
function exactly as you need it to in the most efficient way 
and then poof, go away. That doesn't mean that there aren't 
opportunities to displace a lot of applications.
    When we look at the fact that more than half of what we 
produce on an annual basis is not going into the packaging 
stream, it is going into our clothing, and all kinds of other 
applications, there are absolutely--but that is why I keep 
going back to we need that North Star policy that is based on 
how we value carbon. We have to align and manage all the trade 
offs that go back to that one piece, because we will have a lot 
of unintended consequences if we don't keep that clear North 
Star in check.
    Senator Rounds. Thank you.
    Thank you, Mr. Chairman. I just think it is important that 
as we talk about these polymers and the moving forward, that 
the bio-based products not be forgotten. I think there are 
years of research on it, and there are a number of ways in 
which soy in particular, soybeans, have been used.
    The biopolymers, we have had petrochemical engineers from 
the different oil companies actually tell us that once you get 
into that position, it is very difficult to tell them apart, 
and a polymer engineer can use it whether it is bio-based or a 
petrol-based. The difference is the lifespan, and I think that 
is something that perhaps in the future we could explore.
    Thank you, Mr. Chairman.
    Senator Barrasso. Thank you, Senator Rounds.
    We do have a number of Senators who are joining us 
remotely, as well as, I believe Senator Merkley, is next with 
questions.
    Senator Merkley.
    Senator Merkley. Great. Thank you very much, Mr. Chairman. 
I am pleased to be able to participate in this fashion.
    I wanted to start out with having gone down and gotten some 
breakfast this morning, and I will hold up, hopefully, you will 
be able to see this, the lid, the plastic lid, which has no 
triangle on it. Is there any way I can recycle this? If one of 
you can just give me a quick answer.
    Ms. Croke. I can answer that. We are actually working, it 
is not super quick, but we are working with Starbucks and 
McDonald's to find solutions with innovation and recovery 
solutions on that. It is a 3 year project, so not today, but 
give me like, a year and a half.
    Senator Merkley. OK. Well, I also got a cup of yogurt and 
was handed a spoon, and this has no triangle on it either. Is 
this recyclable?
    Ms. Butler. No.
    Senator Merkley. And that spoon came in this bag, this 
little plastic bag. It has no triangle. Can I do anything with 
that?
    Ms. Butler. Yes.
    Senator Merkley. So. All of these are headed to the 
landfill or incineration, which has its own pollution problems. 
There's a term called wish-cycling, which is basically that we 
think we have this big plastic bucket that I am here next to, 
and I am throwing my plastic in there. I am looking for the 
triangles.
    But then I find out in preparation for our gathering today, 
that right now, if it has a triangle and the number 3, 4, 5, 6, 
or 7, basically there is no market. Basically only number 1 and 
number 2 have a significant market. If I had a ton of it, a ton 
of number 3, say, can I sell that anywhere in Oregon?
    Ms. Croke. If you had a ton of number 5, you could, but 3, 
not to my knowledge.
    Senator Merkley. No go on number 3. How about number 4?
    Ms. Butler. There is a market for number 4. What you said 
is that it has to have enough volume, and it depends on where 
you are. It is always very regional, and as Bridget said, there 
is more demand for polypropylene for number 2, emerging for 
number 1. There are differences between bottles versus trays.
    And I want to point out that from the reclamation capacity 
that was starting to move up and thrive, and there are 
companies that despite so many challenges, have really 
demonstrated American ingenuity. They were getting some resins 
back up to almost virgin quality. This is all before the Shell 
gas revolution when the price went down pretty dramatically, 
starting in around 2014 and moving down.
    So all of these questions are important. Anything can be 
recycled if you have enough of it and there is value for it. 
That is the problem. Both sides of the economic equation are 
out of balance in terms of low disposal costs.
    Senator Merkley. My home State, which is really all about 
recycling, started the first bottle bill and the first effort 
for massive beach cleanup, but the marketplace is not there.
    There are other pieces of this puzzle that haven't been 
talked about. One is that a lot of plastics are made from 
natural gas. Natural gas is produced in a fashion that 
contributes a lot to global warming, the burning of plastics 
contributes to global warming, the leakage of methane out of 
the natural gas pipe system contributes a lot to global 
warming.
    So why don't we just go with coated paper or other 
strategies? My colleague mentioned biopolymers. You have 
already responded to that, but there are a number of companies 
that are working on coated papers as an alternative to these 
uses.
    Why not kind of get out of this cycle, nonrecyclable 
plastic and burned plastic, rather than trying to double down 
on a losing strategy?
    I would just ask Ms. Butler, what are your thoughts on 
that?
    Ms. Butler. That is an excellent question, and this is why 
it is so important that we keep getting back to using science 
to really navigate the trade offs with that North Star in 
place. It is such a knee jerk reaction to say, let's just use 
paper. But the reality is, for that paper application to 
function for the application we want, there are hosts of 
chemicals that have to be used.
    The PFAS issue is serious, and in terms of the sheer volume 
of paper that is ending up in our landfills right now that are 
off-gassing methane, it is something that is not, I think, on 
the radar nearly enough. We are not managing and looking at all 
the renegade gases coming off of landfills, which is why the 
cost of disposal is so much lower than it should be.
    I think that you can switch to paper, but we will have a 
much more dramatic greenhouse gas increase if we don't change 
consumption patterns. It is a feel good solution, but it 
doesn't get us to the right overall objective, which is 
reducing overall environmental impact.
    Senator Merkley. Well, I do agree with that; that has to be 
the goal.
    I wanted to mention one other thing that hasn't been 
raised, and that is plastic, as it deteriorates, produces 
chemicals that are endocrine disruptors. Study after study 
shows a significant impact on species, including human species 
and human health.
    I think that is an issue that needs to enter into this 
discussion, that a future based on plastics is a future based 
on endocrine disruptors that impact human health.
    We are looking at a situation where even if you breathe the 
air on a remote hike on a western land, we are now finding that 
the dust is full of plastics. We are finding that the ocean is 
going to have more plastic in it than fish by weight within a 
couple decades.
    It is everywhere, and it has profound impacts. I think we 
have to look at every possible strategy using that science, as 
you noted, to compare the impacts of different pieces, 
different approaches. But I think we are entering deep into an 
issue that is deeply problematic for the human race and 
American health and environmental health.
    I will just end it there. Thanks.
    Ms. Butler. Thank you.
    Senator Barrasso. Senator Cardin.
    Senator Cardin. Mr. Chairman, thank you very much, and let 
me thank all the panelists on this hearing.
    I am sorry I could not be here for the beginning part; we 
had another committee hearing at that time, but I thank you 
very much.
    I am going to follow up on Senator Merkley's point in 
regard to plastics, specifically dealing with microplastics 
that end up in the Chesapeake Bay. We had a report done by the 
Chesapeake Bay Program Scientific and Technical Advisory 
Committee in 2019 that took samples and found that nine tidal 
stations in the Chesapeake Bay watershed, every one they tested 
had microplastics, which are extremely damaging to the 
environmental future of the Chesapeake Bay.
    We also found that wastewater treatment plants were not 
designed to get microplastics out of the water system, so that 
we also have a situation where we think we have treated 
wastewater successfully, where we have not in regards to 
microplastics.
    I know we have been talking about this, but for those of us 
who are committed to the Chesapeake Bay Program and committed 
to doing everything we possibly can to preserve the Chesapeake 
Bay for future generations, it is a national treasure declared 
so by many Administrations, can you tell us how we can use the 
tools available through the Chesapeake Bay Program and through 
the efforts there and partnership effectively to deal with 
microplastic issues in our waters?
    Ms. Croke. I am happy to start, and I might let Nina talk a 
little bit more about some of the science, but I will say that 
if we are talking about microplastics, which you are correct, 
is a huge issue, we need to take a much bigger lens on industry 
at large. Because what we have identified is that a significant 
part of those microplastics are coming from the textile 
industry and fast fashion. The waste that is coming out of 
there is a quiet issue that hasn't emerged as much as the 
single use packaging plastics, but is polymer-based, and is 
creating a lot of that risk, as well as tires on the road.
    So I think taking a scientific approach to understanding 
where microplastics are coming from, so that we can create 
system solutions that solve for those issues around that 
particular issue.
    Nina, I am not sure if you have anything.
    Ms. Butler. No, that was great, Bridget.
    I am going to kind of sound like a bit of a broken record, 
but again, it is until we put value on plastics, and we 
navigate the trade offs, as Bridget said, we are going to 
continue to be going in the wrong direction here.
    So because there is so little value, and there are 
immediate tools that you could look at in terms of bottle 
bills, do you get materials collected. But to Bridget's point, 
much of it is happening in applications that are not as 
visible, and what we see is like, well, we should just 
immediately eliminate or ban that.
    It is fundamentally our responsibility to find a way to put 
value on carbon, and therefore plastic, so that it is less and 
less likely for someone to walk by and think it is OK to leave 
something sitting there. Until we do that, we are going to have 
more and more of both microplastic and just sheer volume 
plastic waste.
    Ms. Stasz. If I might add on to that, I think no one wants 
to see pollution of any kind, which is why we are all here 
today. We want to talk about how we can keep packaging not just 
out of landfills, but out of rivers, out of lakes, out of 
streams, out of the Chesapeake Bay.
    I think to Senator Merkley's point, this consumer confusion 
piece is really rampant, and that is because of these 10,000 
different systems. What you do with the number 3, with the 
chasing arrows in your town could be different from a single 
family house to the apartment building next door to your office 
building.
    It is no wonder that as some of the research that we did, 
we found that only 4 percent of Americans are not confused by 
their recycling system. So they are either wish-cycling, 
putting the wrongs things in the bin, hoping it gets recycled, 
or they are not recycling altogether.
    I think addressing this patchwork of systems, getting at 
some more harmonized systems, helps us educate consumers 
better, we get better quality product in the bin, but we also 
get consumers to start participating in recycling, keeping 
packaging out of landfill, keeping plastics in particular out 
of landfill, or rivers, lakes, and oceans.
    Senator Cardin. Let me just make a comment if I might. The 
reason I asked the question, and I thank you all for your 
answer, is that microplastics are not seen or not known in the 
Chesapeake Bay. One of our great successes in cleaning up the 
Bay has been education, public education. The people in the 
watershed really want to do their share to preserve the Bay for 
future generations.
    We need to do a better job in regard to plastics. Yes, we 
see the plastics in the ocean, and we see it in our waters, and 
we are concerned about it, and we want to do things. But what 
we don't see, sometimes, we don't deal with.
    I thank you all for your answer. I agree we have to look at 
the broader issues in regard to plastics. The Chesapeake Bay is 
just one of the casualties from not having a policy that 
reflects the true cost of plastic.
    So I thank you all for your answer, and I think in regard 
to the Chesapeake Bay Program, we have to redouble our public 
education efforts so that the public understands that a lot of 
the efforts that we are doing to clean up the Bay, we need to 
put an effort in regards to the microplastics.
    Thank you all very much for participating in the hearing.
    Senator Barrasso. Thank you, Senator Cardin.
    Senator Gillibrand.
    Senator Gillibrand. Thank you, Mr. Chairman.
    Ms. Butler, I really appreciate your testimony. We really 
heard how plastic pollution in our environment, both in the 
land and in the air and the water, is a growing problem across 
the country.
    I want to talk a little bit about some of the activities 
that States like New York have engaged in. New York has enacted 
policies designed to significantly reduce single use plastics 
that are difficult to recycle, including plastic shopping bags, 
straws, and Styrofoam containers.
    How effective have local bans been on reducing the amount 
of plastic consumed and discarded in communities with such 
policies in place?
    Ms. Butler. Thank you for the question. It is not as 
straightforward as I would like to say.
    Again, I keep going back to you have to navigate the trade 
offs. Unfortunately, when we document how much availability of 
recycling, when it comes to banning plastic bags, it has had a 
dramatic decrease in the access that citizens can find to 
recycle the things that are in their households that are far 
beyond the plastic bag. That place to receive the material is 
also what you can put your bathroom tissue wrap, your bread 
bags, all kinds of things that really do carry products and 
reduce food waste.
    But the bigger issue looms that we don't have, the 
companies that take that material and have evolved over decades 
and really been the innovators, I think, in our economy, do not 
have the demand.
    While there are companies that want to buy recycled 
content, the reality is purchasing recycled content right now 
does cost a lot more than virgin. So there isn't true demand 
that is creating value to get that material back.
    So bans can lead to unintended consequences, and it really 
depends on what application you are talking about, whether you 
are talking about bags, or you are talking about straws, or you 
are talking about polystyrene.
    With the case with bags, it has had, in some ways, a 
detrimental impact if it doesn't also reduce the use of paper 
bags that have a very heavy carbon footprint.
    Senator Gillibrand. You testified that there are virtually 
no economic incentives for producers to use recycled plastic, 
and that producing new plastic is comparatively inexpensive. 
What financial incentives and/or penalties could help make it 
more economically desirable to shift away from new plastic 
production and use more recycled content and reusable products?
    Ms. Butler. Requirements for recycled content could go a 
very long way. Just take the trash bag example that I gave. We 
don't have, to speak of, very much recycled content in an 
application that is destined for landfills. It is very 
commonplace in Europe, but we don't have it, because it's 
simply less expensive.
    So, as a publicly traded company, you are fiduciarily 
irresponsible if you are taking a feedstock that is more 
expensive than another feedstock, and you are increasing risk 
because it may not be the exact same performance that you have 
in highly engineered virgin resin. We have both got 
artificially low cost on the one side of the economic equation, 
which is the cost to dispose, it's less than half in the United 
States than it is in say, Europe, and then on the other side of 
the equation, it's incredibly inexpensive to source virgin 
resin.
    That really became the case, the tipping point was around 
2014, 2015, where companies, for the most part, used recycled 
content because it was a cheaper application. There were 
policies such as the rigid plastic packaging law in California 
that really stimulated a lot of investment in the reclamation 
industry, getting significantly more recycled content.
    But for the most part, once the price dropped below a 
certain kind of specific sweet spot, it became incredibly 
difficult for reclaimers, the recyclers, to compete with 
virgin. It is only those pledges that go away when we have this 
superstorm of low virgin prices, all of a sudden China stepping 
away, and now COVID.
    Senator Gillibrand. What role do you think industry should 
play in bearing the cost of cleanup of plastic pollution in our 
environment?
    Ms. Butler. I think we need to use the economic drivers 
with very well designed extended producer responsibility that 
is anchored, fundamentally, in the value we place on carbon, so 
that there would be fees that are what is called eco-
modulation. The fee adjusts based on the performance of that 
product, and there is a feedback loop, so the better you 
design, the lower your fee.
    What I am hearing from brand companies and even 
petrochemical companies as we have been working a lot more in 
Europe this last year, is that they are actually asking for it.
    There is not a North Star to be designed toward; there is a 
lot of confusion in the marketplace based on what does the 
consumer that may not know all the trade offs, but kind of the 
consumer directions giving, versus what we could have through 
smart policy that is really anchored in looking to reduce 
overall environmental impact.
    So I think EPR is key. I think other tools that fit well 
within that, a bottle bill, recycle minimum, recycle content 
legislation are also really important.
    We can't keep our sights only set on the half-side of the 
equation. It is also how inexpensive it is to landfill. When we 
look at, if we broaden the true cost of landfilling, the price 
would be much higher, and that is taxing the bads, not the 
goods.
    Senator Gillibrand. Thank you, Mr. Chairman. I appreciate 
it.
    Senator Barrasso. Thank you, Senator Gillibrand.
    Senator Boozman.
    Senator Boozman. Thank you, Mr. Chairman, and thank you so 
much, you and Senator Carper, for holding this hearing. It's a 
real pleasure to work with Senator Carper on the Recycling 
Caucus, but also all of us.
    This is something, the nice thing about this, this is a 
very bipartisan issue that just makes a lot of sense, and could 
be low hanging fruit that we need to take advantage of. So we 
do appreciate you guys so much for being here, and how you 
represent common sense stewards of the environment.
    Tell me, one of the things that we talk about is that, it 
is great for the environment, we all agree with that, but tell 
me also about the opportunity that it does in creating jobs. I 
guess we could say that hundreds of thousands of good paying 
jobs, this and that, talk a little bit about that. That is 
something I think that we don't really talk enough about.
    Ms. Stasz. Sure, absolutely, and thank you for the 
question. I agree, this is a really critical bipartisan issue, 
and I think that is so important to progress and to success of 
initiatives that we would put forward.
    When China closed its doors to U.S. recyclables, it did 
expose or show this dramatic lack of domestic infrastructure 
innovation, or in many cases, investment here. But again, that 
provides this opportunity to rebuild that infrastructure, to 
rebuild those jobs, to put more money into the economy in 
different parts of the U.S. to be able to process recyclables 
here, domestically.
    I think North and South Carolina, with their Bottles Mean 
Jobs program, is a really excellent example of that. I think 
another key driver or layer around how we can incentivize 
infrastructure or build out infrastructure in the right places, 
is starting with some baseline data.
    If we don't know where recycling rates are high or where 
most of our infrastructure is, if we have the sort of black box 
of data or lack of data right now, it is really hard to 
understand where should we put our resources, right? Where 
should we put our resources for the best return on our 
investment to create those jobs?
    But I think that there is real opportunity both in 
standardized data collection and in building that domestic 
infrastructure, so we can process our packaging here.
    Senator Boozman. No, I agree totally. In fact, the next 
thing I was going to bring up was the fact that with thousands 
of systems nationwide that nobody knows what you are supposed 
to do, and in fact, many of the people that are recycling don't 
know what to do. It is a huge problem.
    I guess the question is, what specifically, what can we do 
as a Congress, either directly or indirectly, through 
legislation or incentivizing people so that we can have some 
sort of a better system to collect data, have a better system 
to standardize? What are the keys to getting there? We talked 
about this a lot, but how do you actually do that?
    Ms. Stasz. I think standardized definitions is a really 
good start. From EPA's work on their America Recycles effort 
last year, the work of that group found that there are 18 
different definitions of recycled or recyclable in the U.S., 
and that is just the definition of recyclable, never mind the 
10,000 different systems we have to process and handle 
recycling.
    So some standardized definitions, I think, is a really good 
way to start standardized data collection so that we can target 
our investments in the right places.
    Senator Boozman. You guys can jump in.
    Ms. Butler. We have worked on this for many years, the 
harmonization, because we track the amount of plastic that gets 
recycled domestically or sold export. The ability to really 
triangulate that data and look for double counting is based on 
how companies report this data.
    We have looked at harmonizing from a commodity perspective, 
as well as harmonizing how we communicate to the general 
public. We have worked with many organizations to come up with 
this consistent way to do that. How we do audits, coming up 
with consistent methodology through the Association of Plastic 
Recyclers, and the American Chemistry Council, there has been a 
tremendous amount of work on that.
    Then specifically, as Meghan was saying, the question of 
recyclability has been completely blown up. It used to be, you 
had 60 percent access, and you put a recyclable on it, and we 
are good. That was largely because we became very complacent in 
sending material to China that was more difficult.
    Now we are in a whole different ball game. We worked with, 
there has been off and on about five different brand companies 
that last 3 years that had a particular package that was 
unknown as to whether or not it was deemed recyclable or not 
based on the last availability of recycling study.
    So we have developed this extensive decision tree to say 
without a doubt, if a company is going to make a claim to 
recyclability, you have to check all of these boxes, and it 
says it flows through the system, is there market for it, is 
there availability; it is a very complex thing.
    But I almost think that this is a bit of a distraction if 
we don't fundamentally have value on the material and there is 
demand for it. What is drastically lacking, I think, from a 
measurement perspective is verification.
    When you make a claim of recycled content, that is what 
creates real demand and gets it so that it is less likely to 
become litter. Right now, because there is not enough clarity 
on how to do that, the companies that are leading in that space 
aren't realizing a true competitive advantage. It is a market 
failure right now. From a Federal Government perspective, that 
would be huge.
    Senator Boozman. Thank you very much.
    And again, thank you all and our participant by phone. 
Thank you all so much for the great work you are doing.
    Special thanks to Senator Carper and his work and his 
staff, we know who does all the work with these things, I know 
it is true in my case, but we do appreciate your efforts.
    Thank you, Mr. Chairman.
    Senator Barrasso. Thank you, Senator Boozman.
    Senator Carper.
    Senator Carper. I just want to say to John Boozman, thank 
you, it is an honor to be your wingman, and our staff and I, we 
love working with your folks and the other members of this 
Committee, and a lot of people that are not on this Committee, 
or in the Congress.
    I want to ask a question, if I could, of Bridget, please, 
and that is the Closed Loop Partners mission, as I understand 
it, is to build a circular economy that seeks to eliminate 
waste and additional demand for new resources by reusing, by 
recycling, and repurposing materials.
    However, recycling varies, as we know, in each State; we 
heard 10,000 different venues or sources, not sources, but 
places. Recycling varies in each town, city, and county across 
our Nation.
    It varies in our own State. Products that are recycled in 
one city may not be recycled in another. Many types of single 
use plastics that are marketed or labeled as recyclable do not 
have end markets, as we have heard again and again here today.
    This means that many municipalities are not recycling these 
plastics, and they are actually ending up, as we talked about, 
in landfills or in incinerators. This is a tremendous 
impediment to building a circular economy where our country can 
use, can reuse materials efficiently.
    Question: Knowing this challenge, how can industry and 
government work together better, work together better, to build 
that circular economy that works for both our economy and for 
our environment, please?
    Bridget.
    Ms. Croke. Thank you for the question; thank you.
    I just kind of keep going back to something that has come 
up again and again. I would bring it back to what Nina said, in 
that we really need to focus on building value, more end 
markets. We believe, having talked to a lot of industry, big 
consumer product companies, retailers, petrochemical companies, 
who are also getting into the game, and big banks and 
investors, if there is opportunity, they will invest.
    We don't need government to take on the lion's share of the 
investment in solving these issues. We need incentives to help 
create and drive end markets, motivate companies to design for 
recycling, and create an even playing field so that an investor 
who is looking at investing either in a recycling facility, a 
processing facility, or some innovation that is going to 
advance recovery of materials or even new material science, 
they are looking at this, and they are thinking, the commodity 
markets are changing every year.
    Right now, we see good markets, but last year, we saw bad 
markets, and vice versa. If they don't see a 5 year horizon of 
a company purchasing that output, their investment is at risk.
    If we can help create an even playing field in terms of 
incentivizing the use of recycled content for end markets for 
big consumer product companies, investment will flow in the 
private sector.
    So anything that the Federal and regional governments can 
do to help drive that incentive will drive capital in 
significant levels into the space and build scale supply chains 
that naturally compete with the raw material markets.
    Senator Carper. Thank you.
    Let me ask my last question maybe of Meghan and Nina. When 
I was new in the Senate, I didn't know Ted Kennedy, and I asked 
if I could maybe come by his office and have a cup of coffee 
together. We actually had lunch together in his hideaway, which 
was quite an experience, quite a hideaway. My hideaway is the 
size of a broom closet; his was like a museum.
    I said to him over lunch, I said, I have always wondered 
why you, a very liberal Democrat, are like the favored dance 
partner with a lot of Republicans when introducing legislation. 
Looking for a Democrat, they ask you, Ted Kennedy, one of the 
most liberal Democrats, to be their lead Democrat to make it a 
bipartisan bill. I said, Why is that?
    And he said to me, he said I am always willing to 
compromise on policy, never willing to compromise on principle. 
Think about that. Always willing to compromise on policy, never 
willing to compromise on principles.
    What are some principles that we should take to heart, 
embrace, and maybe be reluctant to compromise on? Principles. 
Not policy, but principles, please, each of you.
    Nina, do you want to go first?
    Ms. Butler. Yes. This is very near and dear to my heart, 
and as I said, getting into the world of plastic, it was such 
an unnatural step for me. But it is that basic principle that 
we have to look at how we reduce the most overarching threat to 
life on this planet, and that is climate change, and it is 
toxins, but it's climate change.
    Going back to the microplastic, what we can't see is really 
dangerous, and the acidification of our oceans through 
unbridled use of carbon and greenhouse gas emissions is our 
biggest threat. We have to unlock this plastic paradox by 
establishing the North Star policy so that we stay true to that 
basic principle of protecting this planet.
    Senator Carper. Thank you.
    Meghan. And then I am done.
    Ms. Stasz. I think it is an excellent question. I think a 
foundational principle here is the need for shared 
responsibility. No one actor, no one industry can solve this 
problem alone.
    We really need an environment in which all stakeholders are 
at the table, and all stakeholders need to be at the table 
bringing ideas about how to fix the piece of the recycling 
supply chain that they control, that they have the most 
influence over.
    We have seen our industry, the consumer goods industry has 
made major commitments to packaging improvements as the piece 
of the recycling supply chain over which we have the most 
control. We need all of the other stakeholders at the table as 
well, bringing their ideas to the table on how to fix other 
elements of the packaging supply chain.
    Senator Carper. Mr. Chairman, I just note in closing, one 
of the things that I think has been missing here is leadership. 
I have found the most important ingredient to the success of 
any endeavor is always leadership. This is an all hands on deck 
moment, and the leadership has to come from a lot of sources: 
Business, private sector, States, local governments, EPA, us, 
and from the White House, from whoever is leading our country, 
and for us to learn from other nations that are leading.
    I am delighted that we are here. I think this has been a 
great panel of witnesses, and we are grateful to each of them.
    Thank you so much, Mr. Chairman.
    I would ask unanimous consent, if I could, to submit for 
the record a variety of materials that includes news articles, 
fully recyclables, news articles, letters, statements from 
stakeholders, and other materials relating to today's hearing 
or on challenges facing recycling in the U.S.
    I would ask unanimous consent for that, Mr. Chairman.
    Senator Barrasso. Without objection.
    [The referenced information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    

    Senator Carper. And one more, if I could. I ask unanimous 
consent to submit--is that the same thing? They are the same. 
Two for the price of one. Thanks so much.
    Senator Barrasso. Thank you, Senator Carper. We received a 
number of letters and written testimony from cities and a 
variety of organizations on the state of recycling in America, 
and I am asking unanimous consent to enter all of this material 
into the record, and without objection, that will be done.
    [The referenced information follows:]
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
   
    Senator Barrasso. I want to thank all the members of the 
Senate who were here to participate in this.
    I thank our witnesses, Ms. Croke, Ms. Stasz, and Ms. Butler 
for all of your help. Very thoughtful, very productive time.
    Some of the members who were not able to join us may want 
to submit follow up questions for the record. I know Senator 
Whitehouse had a question that he is going to ask several of 
you to respond to as well. So the hearing record will be open 
for 2 additional weeks.
    I want to thank all of you for your time and your testimony 
for being with us today.
    The hearing is adjourned.
    [Whereupon, at 11:58 a.m., the hearing was adjourned.]

                                 <all>
</pre></body></html>
